U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General


                            PUBLIC
                           RELEASE

                           TECHNOLOGY
                        ADMINISTRATION

                           Financial Statements
                               Fiscal Year 1997


         Audit Report No. FSC/9868-8-0001/March 1998
                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           The Inspector General
                                                           Washington. D. C.   20230
                                             8!--4'I'Es


    rl1\R I 9 !998

 MEMORANDUM FOR:                Gary Bachula
                                                                       ~Ogy



 FROM:                                  ~. ~razi
                                                          ~Jthno
                                Acting Inspector General

 SUBJECT:                       Audit ofT A' s FY 1997 Financial Statements
                                Audit Report No. FSC- 9868- 0001

 The attached audit report presents the results of the audit of the Technology Administration
 (TA) Combined Statements of Financial Position as of September 30 , 1997 , and 1996 , and
 Combined Statements of Operations and Changes in Net Position for the years then ended. Also
 provided are reports onTA' s internal controls and compliance with laws and regulations
 including management' s comments. The accompanying overview and financial statements were
 prepared by T A.

  In accordance with the Chief Financial Officers Act of 1990 , as amended by the Government
  Management Reform Act of 1994 , an audited consolidated financial statement must be prepared
  covering all accounts and associated activities of each office , bureau , and activity of the
  Department. To facilitate the consolidated audit process , the independent certified public
  accounting firm of Price Waterhouse LLP (PW) was contracted to audit TA' s FY 1997 financial
. statements. The Office of Inspector General defined the audit scope , oversaw the process of
  selecting the contractor, and oversaw the performance and delivery of the audit.

 In the opinion ofPW , the financial statements present fairly, in all material respects, the financial
 position of T A as of September 30 , 1997 , and 1996 , and the results of its operations for the years
 then ended , in conformity with the hierarchy of accounting principles and standards approved by
 the principals of the Federal Accounting Standards Advisory Board. This is a comprehensive
 basis of accounting other than generally accepted accounting principles.

 Financial statement audits are a key gauge for measuring the progress of a bureau in meeting the
 goals and objectives of the CFO Act. The results of the audit indicate that TA has been
 successful in establishing internal controls that facilitate the preparation of reliable accounting
 and financial information. The PW FY 1997 report on internal controls identified no material
 weaknesses or reportable conditions.

 Our office reviewed a draft version ofTA' s overview to its FY 1997 financial statements. The
 overview provides the linkage between the financial statements and the Government
 Performance and Results Act of 1993 , the legislation that requires government entities to collect
 and report information on their performance in meeting goals and obj ectives. We shared our
 observations and recommendations in a January 12 , 1998 , discussion paper and a subsequent
 meeting with TA management. TA was responsive to our comments , making some changes to
 the FY 1997 overview, while stating additional improvements will be made for FY 1998 and
 subsequent overviews.
 The overview (1) identifies that TA supports two of the three themes contained in the
 Department' Strategic Plan;   (2) lists many FY 1997 accomplishments by activity; and
 (3) includes some discussion of financial position and results. TA can improve its discussion
 results by improving the linkage of its results to its goals, objectives , and targeted results;
 strengthening reported performance measures (e. , increased outcome and cost-effectiveness
 measures); and improving the presentation of information to facilitate trend analyses and
 assessment of whether target levels of performance have been achieved.

 In order to improve the usefulness of the overview to decision-makers , such as OMB and the
 Congress , we encourage TA to address the observations contained in our discussion paper.
 Also , continued improvement will be needed for the overview to be consistent with OMB
 Bulletin 97- Form and Content of Agency Financial Statements to "provide a clear and
 concise description of the reporting entity and its mission, activities , program and financial
 results , and financial condition. " The OIG realizes that improving the overview is an iterative
 process and encourages TA to strengthen next year s discussion of the bureau s results.

  We recognize TA' s commitment to preparing high quality and meaningful financial statements.
  To continue to meet this objective, it will be necessary that the accounting requirements set forth
  in OMB Bulletin 97- 01 are taken into consideration for preparation of the FY 1998 financial
  statements. Implementation ofOMB Bulletin 97- 01 poses tremendous challenges for various
  reasons. In particular, this bulletin requires six statements to be prepared as compared to OMB
  Bulletin 94- , which required two. One of the six statements , the Statement of Net Costs
  requires T A to report its costs by sub-organizations and programs , which should be based on the
  missions and outputs described in TA' s GPRA strategic and annual plans , its budget structure
. and the Statement of Federal Financial Accounting Standards No. Managerial Cost


                                                                 01.
                            As the federal government has not been required previously to report
  Accounting Standards.

  informationjn such a manner for financial or budgetary purposes , TA will need to place
  appropriate emphasis on implementation ofOMB Bulletin 97-

 If you wish to discuss the contents ofthis report , please contact George E. Ross , Assistant
 Inspector General for Auditing, at (202) 482- 1934 , or Thomas McCaughey, Director, Financial
 Statements Contract Audits Division, at (703) 603- 0301. We appreciate the cooperation and
 courtesies extended by T A during the audit.

 cc:    W. Scott Gould
        Chief Financial Officer and .
         Assistant Secretary for Administration
